No. 19-631
IN THE

WILLIAM P. BARR, ATTORNEY GENERAL;
FEDERAL COMMUNICATIONS COMMISSION,

Petitioners,

v.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., ET AL.,
Respondents.

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amici
Curiae Electronic Privacy Information Center (EPIC) and Twenty-Nine
Technical Experts and Legal Scholars in Support of Petitioners complies with
the word limitations set forth by the Rules of the Court, and contains 6,420
words.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 2, 2020.
/s/ Marc Rotenberg
Marc Rotenberg
Electronic Privacy Information
Center (EPIC)
1519 New Hampshire Ave. NW
Washington, DC 20036
(202) 483-1140
rotenberg@epic.org

